            Office of Inspector General




March 31, 2006

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

DEBORAH GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Audit Report – Postal Service’s Share of Health Insurance Premiums for
         Retired Employees (Report Number FT-AR-06-016)

This report presents results of our self-initiated audit of the U.S. Postal Service’s share
of health insurance premiums for retired Postal Service employees and their survivors
(Project Number 05BM006FT001). We performed this work as part of our audit of the
fiscal year (FY) 2005 Postal Service Financial Statements.

                                               Background
The Postal Service provides health benefits to its career employees and retirees by
participating in the Federal Employees Health Benefits Program, administered by the
Office of Personnel Management’s (OPM) Office of Retirement and Insurance Services.
For retirees, the Postal Service’s contribution is the same as the government’s
contribution for active federal employees. For FY 2005, the Postal Service’s share of
health insurance premiums for approximately 444,000 retirees1 and their survivors
totaled $1.5 billion.

OPM provides the Postal Service with an electronic file supporting each monthly billing
for the Postal Service’s share of retirees’ health insurance premiums. The Postal
Service compares this file to its Employee Master File2 to ensure that retirees were
Postal Service employees, and produces an exception report that identifies those
individuals not found in the Employee Master File. In August 2004, the Postal Service
initiated discussions with OPM to address these exceptions. However, when we
initiated our audit, no definite results were available.




1
 As of September 2005.
2
 The Postal Service’s Employee Master File includes all pertinent information for each Postal Service employee,
such as service computation date, pay level, health benefits code, and tax exemptions.
Postal Service’s Share of Health Insurance                                        FT-AR-06-016
 Premiums for Retired Employees



For the June 2005 billing, the exception report listed 807 individuals with employer
health insurance premiums totaling $138,100.

                         Objectives, Scope, and Methodology
The objectives of this portion of the audit were to determine whether internal controls
over administration of the Postal Service’s share of health insurance premiums paid for
retirees and survivors were adequate, and to determine the accuracy of amounts paid to
OPM for these health insurance premiums.

To accomplish our objectives, we reviewed OPM’s June 2005 billing to the Postal
Service and interviewed officials at OPM and the Postal Service. To ensure accuracy of
the June 2005 billing, we added the employer’s share of premiums for individuals on the
exception report and those who matched the Employee Master File and compared the
result to the billed amount. Further, we reviewed the exception report for unusual items,
such as multiple billings and unusually early birth dates. We also reviewed supporting
documentation for a statistical sample of retiree files for individuals on the exception
report to determine whether the individuals were valid Postal Service retirees or
survivors.

We conducted this audit from August 2005 through March 2006 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with Postal Service and OPM management officials and
included their comments where appropriate.

We relied on computer-generated retiree data from OPM. We performed limited testing
of this data by tracing statistically sampled data to hard copy retiree files.

                                     Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit.

                                             Results

Internal controls over the administration of the Postal Service’s share of health
insurance premiums paid for retirees and survivors need improvement, and amounts
paid to OPM for these premiums were not always accurate. OPM billed the Postal
Service $3,147,520 through August 2005 for the employer’s share of health insurance
premiums for 70 individuals who were not Postal Service retirees or survivors. Our
calculation represents average annual payments covering June 1994 through




                                                2
Postal Service’s Share of Health Insurance                                                            FT-AR-06-016
 Premiums for Retired Employees


August 2005.3 This timeframe is the average duration of health benefits paid for the
70 individuals. Appendix A shows how this amount was calculated.

This occurred because the Postal Service does not have policies and procedures in
place to continuously monitor the exception report of employees not on the Employee
Master File. As a result, the Postal Service overpaid OPM by $3,147,520 for
70 individuals who were not Postal Service employees or survivors.

OPM credited the November 2005 billing for the overpaid amount and discontinued
billing for the individuals identified. We will report the overpayment of $3,147,520 as
questioned costs and the $3,501,097 of future payments discontinued as funds put to
better use in our Semiannual Report to Congress. See Appendix B for a schedule of
future payments discontinued.

Recommendation

We recommend the vice president, controller, in coordination with the vice president,
Employee Resource Management:

1. Establish and communicate policies and procedures to continuously monitor the
   accuracy of the Postal Service’s share of health insurance premiums paid for retires
   and survivors.

Management’s Comments

Management agreed with the intent of the finding. They stated that policies and
procedures are currently in place to monitor bills received from OPM on a regular basis,
but enhancements will be made to closely monitor the exception report and work with
OPM to resolve any differences. Subsequent to the receipt of the response,
management stated they will implement the new enhancements immediately.

Management agreed with our $3,147,520 of questioned costs but disagreed with our
$3,501,597 of funds put to better use because they stated they were already in the
process of removing exceptions when our audit began. Management’s comments, in
their entirety, are included in Appendix C.

Evaluation of Management’s Comments

Management’s comments are responsive to the finding and actions planned should
correct the issue identified. We continue to believe our audit work resulted not only in
the total questioned costs, but also the funds put to better use, based on our estimate of


3
  OPM discontinued billing for these individuals effective September 2005. Accordingly, we updated our calculation
from June through August 2005.




                                                         3
Postal Service’s Share of Health Insurance                                 FT-AR-06-016
 Premiums for Retired Employees


the amount of premiums overpaid. We will continue to monitor the newly implemented
process during our future annual financial statements audit work.

The U.S. Postal Service Office of Inspector General (OIG) considers the
recommendation significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective action(s) are
completed. This recommendation should not be closed in the follow-up tracking system
until the OIG provides written confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Siewert, director,
Financial Statements, or me at (703) 248-2300.

    E-Signed by John Cihota
 ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc:     Richard J. Strasser, Jr.
        Vincent H. DeVito, Jr.
        Jon T. Stratton
        Steven R. Phelps




                                             4
Postal Service’s Share of Health Insurance                                                      FT-AR-06-016
 Premiums for Retired Employees


                                                     APPENDIX A

                         CALCULATION OF OVERPAID HEALTH INSURANCE PREMIUMS

Self-Only Coverage:

        Number of Cases                                                                           46
        Times Number of Months Billed (June 1994 – August 2005)                                 135
        Times Average Billed Rate* (June 1994 – August 2005)                                 $233.92

        Amount Overpaid for Self-Only Coverage                                         $1,452,643.20


Family Coverage:

        Number of Cases                                                                           24
        Times Number of Months Billed (June 1994 – August 2005)                                 135
        Times Average Billed Rate* (June 1994 – August 2005)                                 $523.11

        Amount Overpaid for Family Coverage                                            $1,694,876.40

Total – Self-Only and Family Coverage                                                  $3,147,519.60

Rounded to Whole Dollars                                                                  $3,147,520




* Average Blue Cross/Blue Shield Rates (representative rates) over the billing period with interest established by the
Bureau of Public Debt for the Civil Service Retirement System.




                                                             5
Postal Service’s Share of Health Insurance                              FT-AR-06-016
 Premiums for Retired Employees


                              APPENDIX B. DISCOUNTED CASH FLOW CALCULATION
                                       OF PROJECTED OPM PAYMENTS




                                                   6
Postal Service’s Share of Health Insurance             FT-AR-06-016
 Premiums for Retired Employees


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                             5
